U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Archie Manzanares v. USA, No. 20-5774
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on September 14, 2020.
Although the government waived its right to file a response, the Court has requested that
a response be filed. The government’s response was due on November 6, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension
of time to and including December 7, 2020, within which to file the government’s
response.
Because of an oversight, this extension request is being filed three days late. We have
informed petitioner’s counsel of the oversight, and she has consented to the late extension
request. She has also stated that she does not oppose this further extension.

Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5774
MANZANARES, ARCHIE
USA

MARGARET ANN KATZE
FEDERAL PUBLIC DEFENDER
111 LOMAS BLVD.
STE. 501
ALBUQUERQUE, NM 87102

